<html>
<title> - DISCUSSION DRAFT OF THE EPS IMPROVEMENT ACT OF 2016</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


          DISCUSSION DRAFT OF THE EPS IMPROVEMENT ACT OF 2016

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 12, 2016

                               __________

                           Serial No. 114-109
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                               ___________
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
99-854 PDF                WASHINGTON : 2016                    
            
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="593e2936193a2c2a2d313c3529773a363477">[email&#160;protected]</a>  




                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California7
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               JERRY McNERNEY, California
JOSEPH R. PITTS, Pennsylvania        PAUL TONKO, New York
ROBERT E. LATTA, Ohio                ELIOT L. ENGEL, New York
GREGG HARPER, Vice Chairman          GENE GREEN, Texas
DAVID B. McKINLEY, West Virginia     LOIS CAPPS, California
MIKE POMPEO, Kansas                  MICHAEL F. DOYLE, Pennsylvania
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN P. SARBANES, Maryland
BILL JOHNSON, Ohio                   PETER WELCH, Vermont
BILLY LONG, Missouri                 JOHN A. YARMUTH, Kentucky
RENEE L. ELLMERS, North Carolina     DAVID LOEBSACK, Iowa
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
RICHARD HUDSON, North Carolina
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     1
Hon. Renee L. Ellmers, a Representative in Congress from the 
  State of North Carolina, opening statement.....................     2
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................     3
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     4
    Prepared statement...........................................     5
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    36

                               Witnesses

Jennifer Amann, Buildings Program Director, American Council for 
  an Energy-Efficient Economy....................................     7
    Prepared statement...........................................    10
    Answers to submitted questions...............................    44
Pekka Hakkarainen, Ph.D., Vice President, Lutron Electronics, on 
  behalf of the National Electrical Manufacturers Association....    15
    Prepared statement...........................................    17
    Answers to submitted questions...............................    48

                           Submitted Material

Discussion Draft, H.R. ___, the EPS Improvement Act, submitted by 
  Mr. Whitfield..................................................    38
Letter of January 19, 2015, from Patrick Keal, Government Affairs 
  Director, Big Ass Solutions, to Mr. Upton and Mr. Pallone, 
  submitted by Mr. Whitfield.....................................    41

 
          DISCUSSION DRAFT OF THE EPS IMPROVEMENT ACT OF 2016

                              ----------                              


                       TUESDAY, JANUARY 12, 2016

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
     The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2322 Rayburn House Office Building, Hon. Ed Whitfield 
(chairman of the subcommittee) presiding.
    Members present: Representatives Whitfield, Shimkus, Latta, 
Harper, McKinley, Ellmers, Flores, Mullin, Hudson, McNerney, 
Tonko, Engel, Green, Capps, Welch, Loebsack, and Pallone (ex 
officio).
    Also present: Representative DeGette.
    Staff present: Nick Abraham, Legislative Associate, Energy 
and Power; Will Batson, Legislative Clerk; Leighton Brown, 
Press Assistant; Allison Busbee, Policy Coordinator, Energy and 
Power; Rebecca Card, Assistant Press Secretary; Patrick 
Currier, Senior Counsel, Energy and Power; A.T. Johnston, 
Senior Policy Advisor; Dan Schneider, Press Secretary; Jennifer 
Berenholz, Democratic Chief Clerk; Christine Brennan, 
Democratic Press Secretary; Jeff Carroll, Democratic Staff 
Director; Rick Kessler, Democratic Senior Advisor and Staff 
Director, Energy and Environment; and Alexander Ratner, 
Democratic Policy Analyst.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. I would like to call the hearing to order 
this morning, and today's hearing is going to be on the EPS 
Improvement Act of 2016. And I will introduce our witnesses 
after we have an opportunity to make an opening statement.
    But this hearing this morning is going to be focused on our 
efforts to correct a little glitch in the 2005 Energy Policy 
Act relating to external power sources and solid state liquid 
lighting systems.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    The Obama administration Department of Energy has enacted 
34 energy conservation standards since 2009. Many of these 
standards are not perfect and contain flaws that need to be 
corrected. We have included a few such bipartisan corrections 
in our recent energy bill, and today we address another one 
affecting light emitting diodes, or LEDs. I thank my colleagues 
Renee Ellmers and Diana DeGette for their draft bill that would 
address this issue and benefit both the manufacturers and users 
of these products.
    By way of background, the Energy Policy Act of 2005 
required DOE to set energy conservation standards for external 
power supplies, such as the ones we use to plug in our laptops 
and cell phones, but DOE also included devices that power solid 
state lighting products, also known as LEDs, for purposes of 
regulation. The latest standards will take effect next month. 
However, the statutory definition of an external power supply 
was created back in 2005, and this old language did not 
anticipate the subsequent development of LEDs.
    LED systems contain components that DOE has determined fit 
within the broad definition of an external power supply, but in 
reality these lighting technologies have several unique 
characteristics that make compliance with DOE's new standard 
nearly impossible. I might add that LEDs have many advantages, 
so a DOE rule that makes it harder to produce them would be 
counterproductive to the statute's efficiency goals.
    The EPS Improvement Act of 2016 scales back the external 
power supply rule in order to preserve the market for LED 
products. While keeping the efficiency standard in place for 
most external power supplies, it creates a specific exemption 
for LEDs. In addition, the law authorizes DOE to enact a 
subsequent, more appropriate standard targeting LEDs if the 
agency deems it necessary.
    Manufacturers and energy efficiency advocates agree that 
this change makes sense, and we will hear from representatives 
of both groups today.
    Let's kick off 2016 by making one DOE regulation more 
workable for those who make their livelihoods from LEDS as well 
as those who use them.

    [The proposed legislation appears at the conclusion of the 
hearing.]
    Mr. Whitfield. And at this time I am going to call on Renee 
Ellmers to give her opening statement. She and Diana together, 
it is their bill, and I want to give them an opportunity to 
talk about it.

OPENING STATEMENT OF HON. RENEE L. ELLMERS, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mrs. Ellmers. Thank you, Chairman Whitfield, so much for 
this opportunity and for holding this hearing today, and I want 
to thank our panel for being here as well. There are many 
people who have been working on this issue trying to correct 
the glitch in the regulations, coming up and helping to draft 
this legislation and make this hearing possible.
    First, I would like to thank my colleagues, Mike Pompeo, 
Diana DeGette, Doris Matsui, and Charlie Dent, and their staff 
for their support and hard work throughout this process. 
Finally, but most importantly, Mr. Chairman, I would like to 
thank the committee staff itself. You have put up a great 
teamwork together on this issue and you have been wonderful in 
working with my staff and throughout this whole process. I am 
truly thankful and grateful for their time and effort.
    The EPS Improvement Act of 2016 is a bipartisan and 
commonsense bill that would provide certainty to manufacturers 
and resolve the underlying issues of the DOE external power 
supply rule. In 2005, Congress directed the Department of 
Energy to develop energy efficiency standards for external 
power supplies and they developed a definition for EPS devices. 
DOE stated that the products that were intended to be covered 
by these standards, quote, convert household electric current 
into DC or lower power voltage to AC to operate consumer 
products such as laptop computers or smart phones. And that is 
pretty much the plan.
    Years after the passage of the Energy Policy Act of 2005, 
new technologies arose such as OLED and LED drivers were 
introduced into the marketplace. We all know how quickly 
technology is advancing, and innovation. While the development 
of this technology increased energy efficiency, it has also 
caused uncertainty in the manufacturing sector as DOE roped in 
drivers as products to also be covered.
    DOE is now attempting to regulate a product that was not in 
the marketplace at the time Congress initially directed the 
Department to set external power supply standards. Both 
manufacturers and the energy efficiency community agree that 
this was not the intent of Congress, as LED and OLED drivers 
were not in the marketplace in 2005 when Congress directed DOE 
to develop these standards. DOE has continued with this 
misguided rule despite the distinct differences in the design 
and use of LED drivers to that of the design and use of EPS.
    One example of the differences is that EPS use single stage 
power conversion while LED drivers use a two stage power 
conversion. Thankfully, this legislation resolves the problem 
by excluding SSL drivers for this technology and prevents it 
from being included in other broad rulemaking. This regulation 
will not only stifle innovation but inject uncertainty into the 
manufacturing sector while creating less energy-efficient 
products and higher energy prices for consumers.
    Without congressional action by February 10th of this year, 
this rule could unintentionally threaten thousands of jobs. I 
look forward to hearing from our witnesses, and with that, Mr. 
Chairman, I yield back.
    Mr. Whitfield. Well, thank you, Mrs. Ellmers, very much. We 
appreciate that. And at this time I would like to recognize the 
gentleman from California, Mr. McNerney, for 5 minutes.

 OPENING STATEMENT OF HON. JERRY MCNERNEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McNerney. Well, thank you, Mr. Chairman. We are here 
today to hold the legislative hearing on the External Power 
Supply, or EPS, Improvement Act, which addresses an important 
issue for LED innovation, manufacturers and future investments 
in this exciting industry. The EPS Improvement Act would exempt 
electrical drivers that power solid state lighting products 
from the Department of Energy's energy conservation standard 
for external power supplies.
    This targeted bill sponsored by my colleagues Renee Ellmers 
and Diana DeGette would amend the Energy Policy and 
Conservation Act to exclude LED drivers from standards that go 
into effect on February 10th of this year. Energy efficiency 
standards are important as they save consumers money on their 
energy bills and reduce greenhouse gas emissions.
    It is estimated that the national appliance and equipment 
efficiency standards have saved, believe it or not, 5.4 
quadrillion BTUs of energy in 2014 alone. The standards enacted 
to date will save consumers and businesses more than $1.1 
trillion through 2035--I see heads nodding here--and the 
technology innovation spurred by these standards is critical. 
We need to support innovation to address climate change with 
energy efficiency and renewable technology.
    My Grid Innovation Caucus co-chairwoman, Congresswoman 
Ellmers, and I believe that we must promote technologies that 
help us adopt to our growing energy needs and provide 
additional options for consumers, businesses and the economy. 
And we must use the energy standards in a manner that does not 
confuse the market. At the time the Energy Policy and 
Conservation Act was amended, LED drivers were an emerging 
technology but they still fell under the broad definition of an 
external power supply. LED drivers represent the next wave of 
lighting technology and capabilities enabling smart buildings, 
industry facilities and homes and reduce their costs and 
enhance their performance.
    Investments in LED driver technology are robust and 
ongoing; new standards at this time could slow down additional 
investments. Leaving LED drivers in the EPS final rule could 
hinder the transition to more energy-efficient lighting in the 
marketplace and increase energy use and the cost for consumers.
    This legislation, however, does not grant the Department of 
Energy the authority to prescribe energy conservation standards 
down the road, or it does grant--excuse me--the DOE the 
authority to prescribe energy conservation standards down the 
road so that it can implement more appropriate standards for 
the LED industry when the time is appropriate.
    I support this EPS Improvement Act because it clarifies 
congressional intent by clarifying the statutory definition of 
external power supplies to exclude LED drivers. This measure 
was developed in consultation with the DOE and is supported by 
industry stakeholders. We should provide LED manufacturers 
market stability so they are able to improve technology that 
has already been demonstrated in its ability to increase energy 
efficiency in consumer and commercial applications.
    I thank our witnesses for joining us today and look forward 
to hearing your testimony. Thank you, and I yield back.
    Mr. Whitfield. Thank you very much, Mr. McNerney. Mr. Upton 
is not here this morning. Is there anyone else on our side of 
the aisle that would like to make a comment about this hearing, 
the subject matter of this hearing? If not, then I will 
recognize the gentleman from New Jersey, Mr. Pallone, for 5 
minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I want to thank you 
and the ranking member of the subcommittee for holding today's 
legislative hearing on the EPS Improvement Act of 2010. This 
bill authored by Representatives Ellmers and DeGette would 
exempt LED consumer light bulbs from new mandatory efficiency 
standards for external power supplies. And the development of 
LED light bulbs has been an energy efficiency success story and 
I am concerned about any action no matter how well intentioned 
that might interfere with that success.
    More than a decade ago, Congress amended the Energy Policy 
and Conservation Act to set efficiency standards for external 
power supplies. An external power supply, or EPS, is typically 
used to convert household electric current to help operate 
consumer products. For most Americans that means the big plugs 
that are associated with laptop computers, home cordless 
phones, answering machines and the like. As part of this 
regulation, the DOE has moved forward on a plan to include 
power drivers for solid state lighting which are an integral 
part of highly efficient LED replacement light bulbs. In its 
comments with stakeholders it is clear that DOE needs statutory 
authority to alter the law's definitions.
    Meanwhile, the National Electrical Manufacturers 
Association argued that Congress didn't intend to cover 
consumer LED light bulbs when it enacted EPACT 2005, or when it 
amended the law in the 2007 Energy Independence and Security 
Act. I am inclined to agree that Congress did not intend to 
capture LED light bulbs in the 2014 rule. The regulation of 
EPSs has been discussed at length both in this committee and 
within the stakeholder community. Never once had LED light 
bulbs been contemplated; instead, the discussion was focused on 
television sets, computers and stereo equipment.
    So it is clear to me, however, that Congress' multiple 
efforts to legislate in this area over a short time frame has 
added confusion rather than clarity to the statute who 
explicitly carved out some things like medical devices from the 
definition of an EPS, but we did not carve out LED light bulbs. 
I think that had we known more about the workings of LED light 
bulbs at the time we would have exempted them specifically from 
mandatory efficiency standards from the start.
    So right now, a modern LED light bulb that replaces the 
kind of 60-watt light bulb we used in the last century will 
only consume nine watts of power to produce the same amount of 
light, last for a decade, and sells for as little as $3.99. 
That is a great deal for any consumer and I see no benefit to 
the consumer, the environment or the economy from regulating 
the efficiency of these light bulbs at this time.
    I am encouraged by today's legislative hearing to put this 
issue in perspective and I am hopeful we can work together to 
expeditiously move this bill forward. And I would just like now 
to yield the balance of my time to the lead sponsor of the 
legislation, the gentlewoman from Colorado, Ms. DeGette.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    I want to thank the chair and ranking member of the 
subcommittee for holding today's legislative hearing on the EPS 
Improvement Act of 2016. This bill, authored by Reps. Ellmers 
and DeGette, would exempt LED consumer light bulbs from new 
mandatory efficiency standards for external power supplies. The 
development of LED light bulbs has been an energy efficiency 
success story and I'm concerned about any action, no matter how 
well-intentioned, that might interfere with that success.
    More than a decade ago, Congress amended the Energy Policy 
and Conservation Act to set efficiency standards for external 
power supplies. An external power supply, or EPS, is typically 
used to convert household electric currents to help operate 
consumer products. For most Americans that means the big plugs 
that are associated with laptop computers, home cordless 
phones, answering machines and the like.
    As a part of its regulations the DOE has moved forward on a 
plan to include power drivers for solid state lighting, which 
are an integral part of highly efficient LED replacement light 
bulbs. In its comments with stakeholders, it's clear that DOE 
needs statutory authority to alter the law's definitions. 
Meanwhile, the National Electrical Manufacturer's Association 
argued that Congress didn't intend to cover consumer LED light 
bulbs when it enacted EPACT 2005 or when it amended the law in 
the 2007 Energy Independence and Security Act.
    I'm inclined to agree that Congress did not intend to 
capture LED light bulbs in that 2014 rule. The regulation of 
EPSs had been discussed at length both in this committee and 
within the stakeholder community. Never once had LED light 
bulbs been contemplated. Instead, the discussion was focused on 
television sets, computers, and stereo equipment.
    It's clear to me, however, that Congress' multiple efforts 
to legislate in this area over a short time frame has added 
confusion, rather than clarity, to the statute. We explicitly 
carved out some things like medical devices from the definition 
of an EPS, but we did not carve out LED light bulbs. I think 
that had we known more about the workings of LED light bulbs at 
the time, we would have exempted them specifically from 
mandatory efficiency standards from the start.
    Right now, a modern LED light bulb that replaces the kind 
of 60 watt light bulb we used in the last century, will only 
consume 9 watts of power to produce the same amount of light, 
last for a decade and sells for as little as $3.99. That's a 
great deal for any consumer and I see no benefit to the 
consumer, the environment or the economy from regulating the 
efficiency of these light bulbs at this time.
    I am encouraged by today's legislative hearing to put this 
issue into perspective and I'm hopeful we can work together to 
expeditiously move this bill forward.
    Thank you, and I yield the balance of my time to the lead 
Democratic sponsor of the legislation, the gentlelady from 
Colorado, Ms. DeGette.

    Ms. DeGette. Thank you very much for yielding to me, 
Ranking Member Pallone. I am really proud to be leading this 
bill with Representative Ellmers, truly working across the 
aisle, literally, today. And as has been said, this bill will 
allow the Department of Energy to provide, to prescribe a 
separate energy conservation standard for LED drivers.
    As we have been discussing, when this committee wrote the 
Energy Policy and Conservation Act of 2005 it directed the 
Department of Energy to develop a conservation standard for 
various external power supply products. That term was meant to 
cover products that convert household electric current in order 
to operate a consumer product like a laptop computer or a smart 
phone.
    At that time in 2005, LED lighting was in its very early 
stages. And as much we try and often succeed, we didn't have a 
crystal ball to see into the future of LED lighting. So since 
that time because of the broad definition we created for 
external power supplies, emergent LED drivers were swept up 
into a conservation standard that just doesn't make sense. This 
means that, although LED drivers are highly energy-efficient, 
they can't meet the EPS conservation standard and their ability 
to compete in the competitive lighting market is now an open 
question.
    Well, it seems like a technicality, but the bill is 
actually vitally important. LED drivers represent the next wave 
of lighting technology allowing for better and faster Internet 
connections, enabling smart buildings, industry facilities and 
homes to reduce their costs, improving consumer experiences in 
the retail industry and even leading to even faster recovery 
times in hospitals by controlling the color and timing of the 
lights in recovery rooms.
    It is estimated that switching to LED lighting could reduce 
national lighting electricity use by nearly one half by 2030. 
That is the annual equivalent to saving three quadrillion BTUs, 
which is worth $26 billion in today's standards. So by passing 
the EPS Improvement Act of 2016 will let the LED lighting 
revolution continue, and in turn help lower energy prices for 
every American business.
    I want to thank the panelists for coming today. I look 
forward to your testimony, and I yield back.
    Mr. Whitfield. That concludes our opening statements. And 
before I introduce our panel of witnesses I do want to thank 
both the Democratic and Republican staff, certainly Diana 
DeGette and Renee Ellmers for working together on this 
important legislation. And we appreciate very much the National 
Electrical Manufacturers Association and the American Council 
for an Energy-Efficient Economy helping us to craft this 
legislation.
    And we are delighted that we have two witnesses here today 
representing those organizations. First of all, we have 
Jennifer Amann who is the Buildings Program director at the 
American Council for an Energy-Efficient Economy, and then we 
have Dr. Pekka Hakkarainen who is vice president of Lutron 
Electronics. I think they are from Pennsylvania, I believe. And 
you are testifying on behalf of the National Electrical 
Manufacturers Association.
    So we appreciate both of you being with us this morning, 
and we look forward to your opening statement and your 
expertise in this area. And with that Ms. Amann, I will 
recognize you for your 5-minute opening statement.

   STATEMENTS OF JENNIFER AMANN, BUILDINGS PROGRAM DIRECTOR, 
  AMERICAN COUNCIL FOR AN ENERGY-EFFICIENT ECONOMY, AND PEKKA 
  HAKKARAINEN, PH.D., VICE PRESIDENT, LUTRON ELECTRONICS, ON 
  BEHALF OF THE NATIONAL ELECTRICAL MANUFACTURERS ASSOCIATION

                  STATEMENT OF JENNIFER AMANN

    Ms. Amann. My name is Jennifer Amann, and I am----
    Mr. Whitfield. Amann, I am sorry. Be sure and turn your 
microphone on.
    Ms. Amann. I am the Buildings Program director for the 
American Council for an Energy-Efficient Economy, or ACEEE. We 
are a nonprofit organization that acts as a catalyst to advance 
energy efficiency policies, programs, technologies, investments 
and behavior. We were formed in 1980 by energy researchers. 
Personally, I have been involved in energy efficiency issues 
for the past 20 years with a focus on energy efficiency in 
buildings, appliances and equipment including lighting and 
electronics, the subjects of today's hearing.
    National appliance and equipment efficiency standards are a 
proven energy saving policy. The first standards were 
established in 1987 and signed into law by President Reagan. 
ACEEE estimates that efficiency standards saved 5.4 quadrillion 
BTUs, or quads, of energy in 2014 alone. That is roughly five 
percent of total U.S. energy use in that year. Standards 
enacted to date will save consumers and businesses more than 
$1.1 trillion through 2035.
    External power supplies, or EPS, are also known as power 
adapters, the small boxes on the cord of many small or portable 
electronic devices such as laptop computers, modems, cordless 
and cell phones. According to DOE, annual shipments of these 
products number about 345 million units.
    In the 1990s, with the emergence of low-cost chips and 
portable electronics, new EPS technologies were developed to 
significantly reduce the size of the products while offering 
better performance and improved energy efficiency. A standard 
for EPS would capture savings from new power supply 
technologies across all of the broad spectrum of products that 
utilize external power supplies much more effectively than 
establishing separate standards for each of the types of 
products, individual classes of products that use them.
    The Energy Independence and Security Act of 2007 
established the first standard for external power supplies 
which took effect in 2008, and it also instructed DOE to 
complete future rulemakings to revise the standard as 
warranted. DOE estimates the standard, the initial standard, 
will save approximately 3.8 quads--that is equivalent to the 
total energy consumption of the State of Pennsylvania--and 
yield $42.4 billion in energy savings for products shipped from 
2008 to 2032.
    In February of 2014, DOE published a final rule revising 
the efficiency requirements for external power supplies, and 
these new standards take effect this February and they will 
reduce EPS energy use by 30 to 85 percent depending on the type 
of device. The new standard will yield consumer energy bill 
savings of approximately $3.8 billion. So the EPS standard has 
been very effective in achieving the intended objectives of the 
rule.
    But at the time that EISA was enacted, solid state lighting 
was very much in its infancy for general service lighting 
applications. There were few products on the market other than 
for niche applications. Today, a wide variety of solid state 
lighting products are available, market share is growing 
rapidly, and the efficiency of the technology now surpasses 
that of other light sources making it a very important 
contributor to reducing national electricity use.
    Solid state lighting products use power supplies, or SSL 
drivers, to power LED lighting. The broad definition of EPS in 
EISA captures, or in the Energy Policy Act captures the power 
supplies used with solid state lighting, but the products are 
somewhat different from other products using EPS. And of 
particular note, these products do not perform and cannot be 
tested when disconnected from a power using load, so they can't 
be shown to comply with some portions of the standard, and as a 
result the required efficiency requirements.
    The bill under consideration would exempt those external 
power supplies that are used to power these lighting products 
from the existing EPS standards while ensuring that DOE retains 
the authority to set standards for these products in the 
future. If it is determined that there are wasteful LED power 
supplies on the market, DOE can then develop an appropriate 
test method and standard for these specific products.
    The provision in the bill explicitly granting DOE authority 
to set future standards on these products is critical to ACEEE 
support for the bill. Absent passage of this technical 
correction, manufacturers would be at risk of selling LED 
lighting products that cannot be shown to meet the standard. 
ACEEE is satisfied with the outcome in this bill because it 
removes a potential obstacle to the continued growth of a 
leading energy efficiency technology while preserving DOE's 
ability to develop a standard on power supplies for these 
products in the future, if warranted.
    This concludes my testimony and I thank you for the 
opportunity to present these views.
    [The prepared statement of Ms. Amann follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Well, thank you very much. And Dr. 
Hakkarainen, you are recognized for 5 minutes.

                 STATEMENT OF PEKKA HAKKARAINEN

    Dr. Hakkarainen. Good morning, Chairman Whitfield and 
Congressman McNerney and members of the committee. My name is 
Pekka Hakkarainen. I am vice president at Lutron. I have been 
employed there for 25 years.
    I want to first thank the committee for giving me the 
opportunity to testify on the EPS Improvement Act. The bill 
before you fixes a needed technical issue with the Department 
of Energy's February 2014 EPS energy conservation standard that 
goes into effect on February 10th of this year. I am here today 
testifying on behalf of Lutron Electronics and the National 
Electrical Manufacturers Association.
    A number of NEMA's members who manufacture and distribute 
solid state LED lighting products are impacted by the DOE 
external power supply standard. My company Lutron Electronics 
is a privately held manufacturer founded in 1961 and is 
headquartered in Coopersburg, Pennsylvania. Our products range 
from consumer dimmers to motorized window shades to lighting 
management systems for both residential and commercial 
buildings, and they also include LED drivers. And we estimate 
that in the U.S. alone, our products save about $1 billion a 
year in consumer electricity bills.
    In 2005, Congress amended the Energy Policy and 
Conservation Act to define and direct the Department of Energy 
to set standards for external power supplies, such as this 
device that I am holding here. An external power supply was 
defined as a device, a circuit that is used to convert 
household electric current into DC current or low voltage AC 
current to operate a consumer product. It can be readily seen 
that the definition of an external power supply uses the words 
``external,'' ``power,'' and ``supply,'' but as technology has 
advanced this definition has created significant confusion in 
the lighting industry.
    According to the Department of Energy, the EPS products 
that were meant to be covered are those that as it says convert 
household electric current to operate a consumer product such 
as a laptop computer or a smart phone or an answering machine, 
et cetera. However, given the broad definition in EPACT 2005, 
additional products were brought into the definition of a 
covered product via the DOE rulemaking process.
    In 2014, DOE issued a final rule for the latest round of 
standards for external power supplies. Despite Lutron and other 
companies asking in writing and in public meetings for the 
Department to clearly identify what types of products impacting 
lighting technologies might be covered as external power 
supplies, no clear answer was provided until the final rule was 
issued. The final rule includes as regulated EPS certain 
drivers for solid state lighting products, such as perhaps this 
one, which industry and the efficiency community agree were 
never intended by Congress to be considered external power 
supplies.
    The EPS Improvement Act resolves this unintended 
consequence by amending and clarifying the statutory definition 
of external power supply to exclude solid state lighting 
drivers that are designed to be connected to and power light-
emitting diodes, LEDs, or organic light-emitting diodes, OLEDs 
that provide illumination. The bill then restates the 
conditions under which the DOE could undertake a rulemaking in 
the future for solid state drivers subject to current statutory 
requirements. Furthermore, the language also requires that DOE 
make public the testing procedure requirements for at least a 
year before any energy conservation standard for these 
technologies is prescribed.
    This necessary fix has wide support. Not only does it have 
bipartisan support, but it also has support from both 
manufacturers and the energy efficiency community. And the same 
language has already passed the House by a voice vote as an 
amendment to H.R. 8, the North American Energy Security and 
Infrastructure Act of 2015.
    Without action before February 10th, solid state drivers 
would be left in the EPS final rule which would be disruptive 
for the transition to more energy-efficient lighting in the 
marketplace. As has already been stated, LED drivers represent 
the next wave of lighting technology and capabilities, and 
significant investment in this technology is ongoing in 
industry. Anything that would slow this evolving and beneficial 
technology would threaten additional investment.
    I want to, lastly, especially thank Representatives 
Ellmers, Dent, DeGette, Pompeo, and Matsui whose leadership is 
very much appreciated on this issue. Thank you, and I would be 
happy to answer any questions.
    [The prepared statement of Dr. Hakkarainen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Whitfield. Well, thank you for your testimony. We 
appreciate it, as I said earlier, both of you being here today, 
and it is encouraging that when you get to a technical issue 
that the parties can come together and try to move 
expeditiously.
    And one of the questions I would have for both of you, I 
have not had an opportunity to talk to Ms. DeGette or Mrs. 
Ellmers about it, but we do believe that we ought to pass this 
legislation through the House rather quickly, maybe even on 
suspension. And I was just curious, have you all been working 
on the Senate side at all about moving the bill over there? 
Whoever would like to respond to that.
    Dr. Hakkarainen. Yes, we have been working on the Senate 
side. My colleagues from NEMA would be better experts on where 
exactly we stand over there.
    Mr. Whitfield. OK.
    Ms. Amann. And I would say yes, we are just aware that 
there are efforts going on in the Senate. We haven't been as 
active as we are supporting the manufacturers' efforts in 
showing out support for it, but we are----
    Mr. Whitfield. OK, good. Now, Dr. Hakkarainen, if February 
the 10th rolled by and this regulation did go into effect and 
we were not able to get this legislation passed, what would be 
the practical impacts on, say, Lutron Electronics?
    Dr. Hakkarainen. There would be uncertainty as to whether 
the EPS rule affects LED drivers and which ones. The Department 
of Energy has not provided industry sufficient guidance on that 
issue, and we are here to ask for clarity.
    Mr. Whitfield. Would that interfere with your ability to 
sell the product?
    Dr. Hakkarainen. Quite probably would, yes.
    Mr. Whitfield. OK. Yes.
    Ms. Amann. I would just say, so DOE has a process for 
companies to request a waiver if they are not able to follow 
the test procedures for a certain product, but that would be 
very time consuming and resource intensive for the 
manufacturers and for DOE to have to deal with those waiver 
applications.
    Mr. Whitfield. I would like to just ask you sort of a 
generic question about the American Council for Energy-
Efficient Economy. I know you are a nonprofit group and I know 
you are involved in policy issues. But I notice that you talk 
about advancing energy efficiency technologies and investments. 
I was just curious, how do you all go about doing that 
advancing new technologies and investments?
    Ms. Amann. Sure. So a lot of our work focuses on 
researching technologies and different mechanisms for bringing 
about energy efficiency, so on the investment side it could be 
financing options that increase the adoption of efficient 
technologies. So we look at, we keep an eye out on emerging 
technologies that are entering the market. We work closely with 
utilities and other efficiency program administrators that are 
spending billions of dollars a year on energy efficiency to 
help them identify the best opportunities, the best markets to 
spend their money in and to advance those technologies.
    Mr. Whitfield. But do you actually help on investments, 
like obtaining money?
    Ms. Amann. Yes. We don't actually do any of that type of 
thing, but we do things like we hold every year an energy 
efficiency finance forum where we bring together folks in the 
finance community to talk about different types of like new 
loan structures, different types of financial mechanisms for 
increasing investment and energy efficiency.
    Mr. Whitfield. And when will that be held this----
    Ms. Amann. This year it will be in May or maybe early June. 
It is May or early June, and it will be in Newport, Rhode 
Island.
    Mr. Whitfield. OK. I yield back the balance of my time and 
recognize Mr. McNerney for 5 minutes.
    Mr. McNerney. Thank you, Mr. Chairman. It is ironic that 
the title ``External Power Supply'' should apply to LEDs, 
because when you buy an LED at the store for your home it is 
all internal. You don't get an external supply. Does that seem 
ironic to you, or am I missing something here?
    Dr. Hakkarainen. So in this case we are not actually 
talking about the light bulb that has the internal driver. You 
are quite right that----
    Mr. McNerney. OK.
    Dr. Hakkarainen [continuing]. Those are the consumer 
products, and they are not, in my understanding, affected by 
the EPS standards that the DOE has.
    Mr. McNerney. So we are talking about the LEDs that are 
inside of----
    Dr. Hakkarainen. But it affects products such as this, a 
separate driver that goes into a, more like a commercial grade 
luminaire lighting fixture where the LED lamps or strips are 
separately installed by the luminaire manufacturer.
    Mr. McNerney. OK. Ms. Amann, are the DOE's energy 
conservation standards that come into effect in February 
inappropriately suited for regulating LED drivers?
     Ms. Amann. No, I don't believe so. It was never the 
intention of the law, I mean, of the rule to do that. And it 
was just an oversight, because these products weren't available 
in the market at that time. And so when I say that DOE 
estimates there are about 345 million power supplies sold each 
year, those are the external power supplies like this. And that 
is what DOE's analysis is based on and that is what the 
efficiency community and manufacturers first discussed when we 
made a recommendation to comment on standard levels----
    Mr. McNerney. Sure.
    Ms. Amann [continuing]. That were passed in 2007 under the 
EISA bill.
    Mr. McNerney. Well, how does the rule disrupt the 
development of a power supply? I don't understand how an 
efficiency rule would disrupt the development of a better power 
supply.
    Ms. Amann. So in this case because the technology for the 
solid state lighting driver is very different from the 
technology that is used in a standard external power supply, so 
the rule doesn't appropriately apply to this other technology.
    For instance, for these products I think one of the big 
points is part of the standard establishes what we call a ``no-
load,'' a requirement for operation in no-load mode. So if you 
plug this into the wall and you had your phone plugged into it, 
once you took your phone away this would still be drawing power 
and you could set it, put it on a power meter and understand 
how much power it drew.
    That is not the case with the solid state lighting drivers. 
They can't operate in no-load mode at all. So you can't even 
test them under the rules as it is set out in the standard, so 
you can't show whether or not it can comply with the standard. 
And I would ask Pekka to correct me if I made any errors in my 
technical explanation, or if you could clarify anything.
    Dr. Hakkarainen. No, that is fine.
    Mr. McNerney. So the standards, I mean it is apples and 
oranges. They don't really apply to the same kind of 
technology.
    Ms. Amann. That is right.
    Dr. Hakkarainen. That is correct.
    Mr. McNerney. And that would really hinder the development 
because the investment would dry up and so on. So how does the 
EPS Improvement Act change that? Did I call it the right thing? 
How does the EPS Improvement Act change that?
    Dr. Hakkarainen. It changes the situation for LED drivers 
because it excludes them from the definition of an external 
power supply, and then it further directs DOE in the future to 
develop separate standards for LED drivers.
    Mr. McNerney. So you believe that this actually removing a 
standard promotes stability and confidence in the market?
    Dr. Hakkarainen. Correct.
    Mr. McNerney. OK. All right, Mr. Chairman, I yield back. 
Thank you.
    Mr. Whitfield. The gentleman yields back. At this time I 
recognize the gentle lady from North Carolina, Mrs. Ellmers, 
for 5 minutes.
    Mrs. Ellmers. Thank you, Mr. Chairman, and again thank you 
to our panelists today on this issue. This is certainly 
something that I have become educated on recently as it affects 
some of our businesses back home in District 2 of North 
Carolina. And again I thank you for your expert testimony in 
helping us to understand what it is that we are dealing with 
and why. Although the legislation and the actions were well 
intended, to direct the Department of Energy as again kind of a 
good problem as technology has advanced so quickly we are 
finding ourselves in this situation where we now have to modify 
the path going forward.
    So Dr. Hakkarainen, will you please take a moment to, and 
you did explain in your testimony the difference between the 
design and use of a typical EPS device compared to that of an 
OLED or LED driver or converter. Could you just expand on that 
a little bit more now?
    Dr. Hakkarainen. Certainly. An external power supply such 
as this device here----
    Mrs. Ellmers. This is the example that I have been given as 
well, so----
    Dr. Hakkarainen. It takes household electric current, 120 
volts powered from a 120-volt supply, and converts it typically 
to a DC voltage, to five volts, nine volts, something like 
that. And there is a single stage of power conversion in that 
process. In an LED driver there are two stages of power 
conversion. First, we convert from the AC power supply, which 
could be 120 volts but it is often actually 277 volts in 
commercial buildings, and converts that to a relatively high 
voltage DC power bus, as we say, inside the driver. And that is 
then further modulated to operate the LED lighting properly, to 
essentially to drive the LED lighting. So there are two stages 
of power conversion.
    In addition, these modern LED drivers have other features 
as well, such as being connected to the external world, to the 
building infrastructure, to the Internet, for example. So there 
are additional features here that external power supplies 
typically don't have.
    Mrs. Ellmers. So again, and I have got mine as well. So 
this driver, basically, and we said converter, driver, actually 
does more than that. And so basically it is stationary. It is 
in the ceiling providing the power supply for the lights 
themselves, the LED lights.
    And so I just want to touch on the issue of the commercial 
component to this, because to me one of the big issues here is 
the uncertainty that our manufacturers are experiencing, but 
then you can see how it impacts any commercial development and 
the cost as well. I mean, I could see that this could be very, 
very costly. Am I correct in that?
    Dr. Hakkarainen. It would certainly be costly. I am not 
even certain that it would be possible.
    Mrs. Ellmers. Possible. And I did want to touch on that as 
well. I know Ms. Amann had discussed this, but basically as it 
is right now the way that the EPS rule stands there really 
isn't a way to have a standard test procedure; is that correct? 
And this will dramatically affect technology moving forward.
    Dr. Hakkarainen. Correct.
    Mrs. Ellmers. Correct. And Dr. Hakkarainen, is it fair to 
say that by encompassing LED and OLED drivers into the final 
EPS rule that it could potentially, I mean, we are basically 
saying that this is going to be counterproductive to the whole 
process, correct?
    Dr. Hakkarainen. Yes, that is correct, because if LED and 
OLED drivers are not available then the energy efficiency on 
buildings decreases.
    Mrs. Ellmers. Decreases. Well, I just, Mr. Chairman, I 
yield back. And again I thank the panel so much for their input 
and their testimony and your expert ability to help explain a 
very difficult technical process so that we can create better 
legislation and be working with our business communities. Thank 
you so much.
    Mr. Whitfield. Mrs. Ellmers yields back, so at this time I 
would like to recognize Ms. Capps for 5 minutes.
    Ms. Capps. Thank you, Mr. Chairman, for holding this 
hearing, and I am going to thank our witnesses for your 
testimonies.
    Investing in and implementing technologies that embrace and 
improve upon energy efficiency is critical. It is clear that 
this is not a simple task. Improvements must be made in every 
sector of our lives from every day consumer products to 
industrial applications. This is exactly why Congress first 
enacted legislation on improving energy efficiency and 
established much needed conservation measures.
    And one of the most important questions when it comes to 
energy efficiency is how we can provide ample energy-efficient 
and cost-effective lighting for people all across the world. 
Our societies are built around an infrastructure that supports 
sufficient, affordable and reliable light.
    Just as it is across the world, the pursuit of innovations 
and efficient lighting has been and continues to be important 
to my congressional district. In fact, the community in my 
district where I live, Santa Barbara, has been instrumental in 
the development of LED technology, as you both know. Shuji 
Nakamura is a professor in the materials science department at 
UC Santa Barbara, has spent decades working on LED technology 
including developing a process for producing the bright blue 
LED. And the blue LED in turn allowed for the development of 
the white LED, an incredibly efficient form of lighting that is 
changing the landscape of consumer and industrial lighting as 
we know it.
    Recognizing the importance of this research, Professor 
Nakamura was awarded the Nobel Prize in physics in 2014 along 
with two other researchers. And my campus, the UC Santa 
Barbara, continues to lead the way in research into LED 
technologies.
    Santa Barbara is also the home of the research lab for 
CREE, which is one of the market leading innovators of consumer 
LED technology. CREE was responsible for the production of the 
first LED that was appropriate for general consumer lighting 
and continues to lead the way in innovation production of 
energy-efficient LEDs.
    Again my district has been at the forefront of accessible 
lighting around the world. For example, the Institute for 
Energy Efficiency at UC Santa Barbara has worked with the 
nonprofit Unite to Light to provide reading lamps to people 
across the world which replaces dangerous kerosene lamps with 
solar charged LED reading lights. I have one of these in my 
home. They are very efficient. And these lights improve health 
and promote education by providing safe and reliable lighting 
around the world. Unite to Light has distributed over 50,000 
lights in 64 countries to date.
    And these innovations are making a difference, and while we 
certainly need these innovators and entrepreneurs, we also need 
to ensure that we have a legislative landscape that supports 
and encourages the continued development of this and other 
similar technologies.
    So Ms. Amann, based on the testimony you provided, it seems 
the current rule from the DOE has the potential to 
significantly impact the continued growth and availability of 
LED technology. Can you elaborate on how the availability of 
LED technology would be impacted by the existing rule in the 
absence of proposed legislation?
    Ms. Amann. In the absence of the legislation there will be 
a lot of uncertainty for manufacturers, and as I mentioned 
before, the one remedy that they have is to go through the DOE 
and use the waiver process or a hardship process. So there is a 
way to get around it, but it would be quite complicated, 
complex and time consuming and very inefficient use of company 
resources and time as well as DOE resources and time in the 
appliance standards program.
    So I think that there would be, there is a way to get 
around it, but it is not, it doesn't make sense. And this 
legislative solution really helps us ensure that there is--
everybody can be focused on getting the efficient lighting out 
there, but also sets the authority for DOE to set standards in 
the future----
    Ms. Capps. OK.
    Ms. Amann [continuing]. As efficient technologies develop.
    Ms. Capps. I wanted to ask Dr. Hakkarainen, would the 
legislation that we are discussing today help to ensure that 
research and implementation of technologies to improve LED 
lighting will continue and, if so, how?
    Dr. Hakkarainen. It certainly will help ensure that and to 
the how we will be able to dedicate our technical resources to 
that development rather than dealing with the regulatory 
uncertainty. We all have limited resources and it is the same 
resources that would be required for both.
    Ms. Capps. I appreciate that. Thank you very much. I yield 
back.
    Mr. Whitfield. At this time I recognize the gentleman from 
Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Well, thank you very much, Mr. Chairman, and 
thanks to our panel for being with us today, really appreciate 
it. Sorry we are kind of in and out. We have another committee 
hearing running with the same thing downstairs.
    But if I could, the lighting industry represents about 
2,500 jobs in my home State of Ohio, and having talked with 
several of these manufacturers I have serious concerns with the 
external power supply energy conservation standard including 
LED and OLED technologies. And Dr. Hakkarainen, could you give 
us some examples in real-world applications of these products?
    Dr. Hakkarainen. So in terms of real-world applications, I 
think the sort of examples I would like to give are commercial 
building projects where LED lighting is used today. So, for 
example, in your State in Ohio, Procter & Gamble headquarters 
and Eaton headquarters both use LED lighting today. In 
California there are lots of headquarters type projects such as 
Apple and salesforce.com and companies like that that have 
moved to LED lighting. Wells Fargo in North Carolina is another 
example. So they tend to be commercial buildings and industrial 
buildings.
    A little bit of these types of LED driver products also 
make their way to residential buildings, but in residences we 
tend to have screw-in lamps more than the higher-cost 
commercial grade products. Does that help?
    Mr. Latta. Yes, thank you. And if I may, I continue with 
another question to you. Could you in regular terms explain to 
us again how these drivers are being impacted by the EPS rule?
    Dr. Hakkarainen. They are being impacted today because the 
statutory definition of an external power supply is pretty 
broad and DOE's general counsel has interpreted the statutory 
definition to bring in quite a large range of products. So the 
debate is indeed about which ones of these LED and OLED drivers 
are brought into the definition and there is not sufficient 
clarity for manufacturers today and that is why we are here 
asking you to provide that clarity.
    Mr. Latta. Well, maybe if I could for both of you, Ms. 
Amann--am I pronouncing your name correctly?
    Ms. Amann. Amann.
    Mr. Latta. Amann. Thank you. If you could both in 
summarizing your testimony for us here, but if there is one 
major thing you would like us to take away from here today what 
would that be from today's hearing?
    Ms. Amann. Beyond the specifics of this issue I think it 
highlights one of the reasons that we are here today and we 
need legislation is because DOE doesn't have the authority to 
change the definition of a product if that definition is set in 
the statute.
    So, I mean, one thing I think we can think about is where 
there are opportunities to allow DOE a little bit more leeway 
to adapt product definitions as the market changes and as new 
technologies are introduced as innovation continues to move 
forward.
    Mr. Latta. Thank you. Dr. Hakkarainen, would you like to 
comment?
    Dr. Hakkarainen. I don't have really anything further to 
add. I think Jennifer said it very well.
    Mr. Latta. OK. Thank you very much. And Mr. Chairman, I 
yield back the balance of my time.
    Mr. Whitfield. The gentleman yields back. At this time I 
recognize the gentleman from Texas, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. Ms. Amann, I am glad to 
see efficiency advocates in industry working side by side. Does 
the DOE currently support SSL technology?
    Ms. Amann. Oh, absolutely. Absolutely. They are spending a 
lot of money under as mandated by Congress to do a lot of 
development in solid state lighting and have really made, 
really worked closely with industry to improve the market 
conditions and advance research and development on new 
technologies.
    Mr. Green. Are the SSL technologies as energy-efficient as 
possible or is there currently room for more improvement?
    Ms. Amann. I think there is room for more improvement. The 
technology has been surprising everybody in terms of how fast 
they are meeting and exceeding their goals for efficiency 
improvements, and at this point it is exceeding almost all 
other light sources in terms of its efficiency.
    Mr. Green. Dr. Hakkarainen, do you have a sense as to why 
SSL was not included?
    Dr. Hakkarainen. Why SSL was not----
    Mr. Green. Was included in the--DOE indicates here in here 
in their original NOPR they did not intend to include SSL 
products.
    Dr. Hakkarainen. So I am not sure that I can answer that 
question, really. My sense is that DOE did not analyze any 
solid state lighting products in the development of the 
external power supply standard. But then, because of the broad 
statutory definition of an external power supply, they after 
the fact concluded that they may very well be in the scope.
    Mr. Green. OK. In your testimony you make references that 
the rulemaking could threaten future investments. Would you 
explain further what costs would be associated with SSL 
inclusion?
    Dr. Hakkarainen. If solid state lighting drivers are 
included in the external power supply standard, then the sort 
of costs, if it is even possible for drivers to meet the 
external power supply standard--that is still a question in my 
mind--but if we found a way over time to get to that point, 
then the driver devices would be significantly more expensive 
for consumers and they would take a long time for our technical 
staff to develop.
    Mr. Green. Is it technically feasible to meet the 
requirements of the DOE standard?
    Dr. Hakkarainen. In my opinion at the moment, no.
    Mr. Green. Thank you, Mr. Chairman. I yield back.
    Mr. Whitfield. The gentleman yields back. At this time I 
would call on the gentleman from Texas, Mr. Flores, for 5 
minutes.
    Mr. Flores. Mr. Chairman, thank you. I have no questions.
    Mr. Whitfield. Mr. Harper, do you have any questions?
    Mr. Harper. Thank you, Mr. Chairman. No questions for me 
either.
    Mr. Whitfield. Well, that is the end of the questions of 
our subcommittee. And Ms. DeGette who is a co-sponsor of the 
bill is a member of the Energy and Commerce Committee. She is 
not a member of this subcommittee and I didn't want you all to 
think we were discriminating against her, so at this time I 
would like to recognize Ms. DeGette for 5 minutes.
    Ms. DeGette. Mr. Chairman, I never think you are 
discriminating against me, and I really appreciate you letting 
me sit in on this hearing. This is one of these issues where in 
retrospect it seems so simple that it should have been right in 
the first place, and it wasn't right in the first place. And 
now, of course, it could both hurt what--Ms. Amann, when I 
heard you talking about what the manufacturers would have to do 
to try to get a waiver I was just imagining Cooper Lighting 
which is one of my, your members and one of my companies in 
Denver, trying to petition the DOE to get a waiver from this 
standard. And it is exactly why people get irritated with 
Congress. So I am really happy that Congresswoman Ellmers and I 
have been able to come together to solve this problem.
    I just want to ask a couple of sort of broader questions. 
Ms. Amann, I wanted to ask you, in your testimony you noted 
that before the EPS standard was developed many external power 
supply devices still used decades-old technology. I am 
wondering if you could talk for a minute how the EPS standard 
has encouraged 21st-century innovation.
    Ms. Amann. Sure. So in the technology that had been used 
for power supplies I think we can all remember the really huge, 
bulky power supplies, and you could never even get two in your 
plug. They were hot. That is a very inefficient technology that 
had been used throughout most of the twentieth century.
    So in the '90s when new technology was developed in 
response to low cost for chips, the emergence of portable 
electronics, for the first time people wanted to carry their 
electronics and their power supplies. We got these new 
innovations that made the supplies smaller and much more 
efficient--much, much more efficient.
    But into the 2000s those products, there were still a lot 
of cheap consumer products that were using the bulky, the 
inexpensive old school technology, and so that is why the 
manufacturers of those power supplies, many of them in 
California and other States, came together to agree on power 
supply standards so that we could get this new technology out 
there into all the different products that use power supplies.
    Ms. DeGette. And Mr. Hakkarainen, do you have anything to 
add to that? Did manufacturers like you work with the 
efficiency advocates in DOE to pioneer the new technologies?
    Dr. Hakkarainen. Yes, we typically do work with, actively 
work with the energy efficiency community and certainly 
collaborate with DOE in their rulemaking processes. Relative to 
the external power supplies themselves, I am not sure I can 
answer that question because we don't actually manufacture 
those devices.
    Ms. DeGette. Right, you do those. Yes.
    Dr. Hakkarainen. But we manufacture LED drivers.
    Ms. DeGette. Yes. And it seems to me that the EPS standard 
has been effective in sparking innovation, but then if we 
shoehorn the LEDs into that the trend could be reversed and 
ironically instead of supporting energy efficiency, the EPS 
standard could actually inhibit that. Is that correct?
    Ms. Amann. Yes, I think so. And I would just point out, we 
had no idea how fast LEDs would develop and they weren't a 
product that was available at the time this was written. I 
mean, we didn't have iPhones then, smart phones. I mean, so 
much innovation has happened since the time that the standard 
was first adopted.
    Ms. DeGette. Thanks. And did you want to add anything, Mr. 
Hakkarainen?
    Thank you. Thank you very much, Mr. Chairman, and I hope we 
can pass this on on suspension. And then I actually thought 
your question was the most important one, is what do we do 
about the other body, because Chairman Upton and I are still 
trying to get our 21st Century Cures bill, which passed this 
committee unanimously, passed by the Senate. So if you figure 
out how to unlock this problem, you can get that bill through, 
too. Thank you. I yield back.
    Mr. Whitfield. We feel quite confident that the Senate will 
recognize that we have perfected this legislation and they will 
adopt it.
    But that does conclude today's hearing, and I want to thank 
our two witnesses for being with us and certainly want to 
reiterate our appreciation to Mrs. Ellmers and Ms. DeGette for 
sort of leading the charge on this. And with that, the record 
will remain open for 10 days, and that concludes today's 
hearing. Thank you very much.
    [Whereupon, at 10:58 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    We take our obligation to oversee regulations under this 
committee's jurisdiction very seriously and whenever there is a 
bipartisan opportunity to improve an existing rule, we take 
action. This is what we hope to do with the draft EPS 
Improvement Act of 2016, and I thank Reps. Ellmers and DeGette 
for their efforts on this bill.
    We all know that consumer electronics are rapidly 
advancing--so fast that the technology sometimes renders 
obsolete the laws under which they are regulated. That is the 
case with the Energy Policy Act of 2005 and its provision 
requiring the Department of Energy (DOE) to set energy 
conservation standards for external power supplies, the most 
recent of which will take effect in February.
    In the decade since the Energy Policy Act was signed into 
law, light emitting diodes (LEDs) have been developed and are 
growing in popularity. They use a power supply that is very 
different than anything contemplated in the 2005 law yet still 
fall within the statutory definition of an external power 
supply. The bottom line is that the new DOE standard for 
external power supplies would cover LEDs, but there would be no 
way for LEDs to meet it.
    The EPS Improvement Act of 2016 recognizes that LEDs need 
to be treated separately. It exempts them from the upcoming 
external power supply standard while creating a process by 
which DOE could set a new standard specific to LEDs.
    This targeted bill would provide relief for LED 
manufacturers while ensuring that this popular product remains 
available to consumers back in Michigan and across the country.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
